Case: 20-2416

Document: 7

Filed: 08/31/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Gerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
August 31, 2020

By the Court:
No. 20-2416

IN RE:
DURWYN TALLEY,
Petitioner

Petition for Writ of Mandamus
District Court No: 3:19-cv-01359-NJR
District Judge Nancy J. Rosenstengel

The following is before the court: PETITION FOR REHEARING ON ORDER
DENYING MANDAMUS AS UNNECESSARY GIVEN ON AUGUST 18, 2020, filed
on August 27, 2020, by the pro se petitioner.
In light of this court's order in appeal No. 19-3032 (as modified by the order of
July 28, 2020, in No. 20-2290) and the district court's finding on August 18, 2020, that
this suit does not concern any imminent danger, this appeal is DISMISSED. The
petition for rehearing, the filing of which is a violation of the order in No. 19-3032, will
not be acted on. This appeal is CLOSED, and the mandate shall issue forthwith. Any
further filings in this appeal will be returned without action.

Case: 20-2416

Document: 2

Filed: 08/18/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
, Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
August 18, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge

No. 20-2416

IN RE:
DURWYN TALLEY,
Petitioner

Petition for Writ of Mandamus
District Court No: 3:19-cv-01359-NJR
District Judge Nancy J. Rosenstengel

Upon consideration of the URGENT MANDAMUS AGAINST THE UNITED
STATES COURT OF APPEALS FOR DENYING PLAINTIFF COMPLETE ACCESS
TO THE FEDERAL COURTS IN VIOLATION OF HIS FIRST, FIRTH AND
FOURTEENTH AMENDMENT RIGHTS TO THE UNITED STATES
CONSTITUTION AND CLEARLY ESTABLISHED FEDERAL LAW, which this court
construes as a motion to amend the filing bar order in No. 19-3032, filed on
July 31, 2020, by the pro se petitioner,
IT IS ORDERED that the motion is DENIED as unnecessary in light of this
court's July 28, 2020, order in No. 20-2290.
The appeal that Durwyn Talley filed on July 7, 2020, in case l:20-cv-01159-CSB
from the Central District of Illinois, may proceed, but determining imminent danger
will be the first step. The district court has our permission to address that question in
light of the amended order in No. 19-3032 before appellate proceedings resume. The
clerk of this court shall transmit this order to the district court.

form name: c7_Order_3J(form ID: 177)

Additional material
from this filing is
available in the
Clerk's Office.

